No. __-____

In the Supreme Court of the United States
ALAN CRITTENDEN,
v.

Petitioner,

MARIKO CRITTENDEN,
Respondent.
CERTIFICATE OF SERVICE
OF

PETITION FOR WRIT OF CERTIORARI
CARSON J. TUCKER, JD, MSEL
Counsel of Record
LEX FORI, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
(734) 887-9261
cjtucker@lexfori.org

CERTIFICATE OF SERVICE OF PETITION
FOR WRIT OF CERTIORARI
Pursuant to Supreme Court Rules and further
Orders of the Court dated April 15, 2020 undersigned
sent on the below date by first class mail and/or by
email if electronic service was consented to a copy of
Petitioner’s Petition for Writ of Certiorari to the
Supreme Court of Georgia in the above-captioned case
to counsel as follows:
ATTORNEYS FOR RESPONDENT
DOUGLAS JOHN HASSINGER, ESQ.
Georgia State Bar Number: 336210
The Siemon Law Firm, P.C.
347 Dahlonega St.
Cumming, GA 30040
(770) 888-5120

Respectfully submitted,
Carson J. Tucker
Lex Fori, PLLC
Attorney for Petitioner
(734) 887-9261
Dated: April 15, 2021

